Sep. 2. 2009 4:31PM                                                                        No. 2874     P. 3/7



                      NATIONAL RAILROAD PASSENGER CORPORATION
                           OFFlCE OF THli: INSPECTOR GENERAL
                               OFFICE OF INVF.STXGATIONS
                                INVESTIGATIVE REPORT

   TITLE:
   CASE NUMBER:        08-043
   DATE OF UEPORT:     September I, 2009 Q fA....---
   REPORT PREPARED BY:                  () f({

   RepOlt of Interview:
   Report of Documents:
   Other Activity (Describe):      C1oshlu-:Rel)..Q.tl

   Allegation:

   The Offlce of Iuspectol' Gelleral (OlG), OfOce                            received an allegation that
                                                                             has been using an Amtrak
   vehicle to transport Amtrak materials to use at his flU to shop business,              auto repair.

   FimJ!uUQj

          ndnnitt"d to OI that he takes his company-assigned vehicle                                 to Ilis
  business 011 occaslou WJthOllt IJcnnisslon/outhorizatioll to do so. Specifically, _       stated that he
  took tho vehicle to his business about a dozell times and that he would clean the il1terior ruld exterior
  ofthe vehicle. Finally, _       claimed that the last two (2) times he took the vehicle to h.is business,


  01 intclviewcd    _'s
  he changed the oil filter and put _In a new battery.


  thnt he nCYor gave _
                           Slljlelvisor
                              pel111ission to take a company vehicle to his _
  malntelHlJ\ce on the vehicle.
                                                                                               who stnted
                                                                                           business to do


  COlIllllgntS :.

  On JWIO 23, 2009,

  On July 3, 2009, 01 received        _'s
                      or sont tho Management refe)'~!11 to
                                                 response (See Exhibit til). As of result of Ol's
  recOHllllondatiollS, Engil1cering will bring formal charges against Mr. _ano assess appropriate
  discipline and Jlas issuecllelter ofinstnlction 09-02 to all engineering ~mployees to review Amtrak's
  highway vehicle IItllizatlol) and control policy.

  011 September 1, 2009.1 receivecllhe signed yoluntary wnivcr fOlnl fOI·the case agaInst      from
                   • • • • • (See Exhibit 112).          admitted his guilt in the case Rnd Rccepted
    Sep. 2. 2009 4:31PM                                                                  No. 2874       P. 4/7



        the discipline of a ten (10) calendar day suspension.

        RecOmmgQdatton:

        It is l'ecommended that this cas!} be closed pending the development of further infonnation.


       Supervisor's Signatl1re:_

       Regional Supervisor's Si~:nlll;UI't::_-R~S:-;'::_______              -=__ _____~


       Deputy Inspector General/Counsel's Slgr't'atllre:._ _ _ _..i:~:::,?:-:J1{QJ::::Q;;;:.....----




(




                                                                                          ",   '(   :
